WAIVER

Supreme Court, U.S.
FILED

MAR 3 1 2021
Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-1278
v.

Johlen Johnson, et ux.
(Petitioners)

JP Morgan Chase Bank, N.A.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, Attn: Clerk's Office, 1. First Street, NE, Washington, D.C. 20543).
Signature
Date-

3-31-21
Matthew Hoxsie

(Type or print) Name

0 Mr.
Firm
Address

0 Mrs.

0 Miss

Greenberg Traurig, LLP
2375 E. Camelback Road, Suite 700

City & State
Phone

0 Ms.

Phoenix, AZ

602-445-8471

Zip
Email

hoxsiem@gtlaw.com

85016

RECEIVED
APR - 6 2021
ErtalFcTIR9L8RsK

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQ lI IR
cc:

Apr?
Mr. Johlen Johnson
1668 Alta Vista Rd.
Bullhead City, AZ 96442

ED
7021

